OIG Audit Report GR-80-07-004

Stop Violence Against Women Act Formula Grant Awarded to the
Oklahoma District Attorneys Council

Audit Report GR-80-07-004


December 2006
Office of the Inspector General


Executive Summary


 The Office of the Inspector General, Audit Division, completed an audit of STOP (Services ● Training ● Officers ● Prosecutors) Violence Against Women Act (STOP VAWA) formula grant number 2004–WF–AX–0054, awarded by the U.S. Department of Justice, Office of Justice Programs, Office on Violence Against Women (OVW), to the Oklahoma District Attorneys Council (ODAC) in Oklahoma City, Oklahoma. 
 Since 1995, the ODAC has administered $18,708,105 in STOP VAWA federal funds. The 2004 award that is the subject of our audit totaled $1,549,000. The mission of the ODAC is to strengthen the criminal justice system in Oklahoma by providing a professional organization for the education, training, and coordination of technical efforts of all state prosecutors. The ODAC provides administrative support function for the 27 District Attorneys’ Districts through five divisions — the Executive Division, Finance Division, Management Information Systems Division, Victim Services Division, and the Federal Programs Division. 
 The STOP VAWA program promotes a coordinated, multidisciplinary approach to improving the criminal justice system's response to violent crimes against women. The program also encourages the development and strengthening of effective law enforcement and prosecution strategies to address violent crimes against women. It also encourages development and strengthening of victim services in cases involving violent crimes against women.
 We reviewed the ODAC’s compliance with essential grant conditions and found a single weakness in two of the eight areas tested — reporting, and grant achievements. No weaknesses were found in drawdowns, budget management and control, program income, matching program costs, grant expenditures, or monitoring of subrecipients. Our report contains one recommendation that is discussed in detail in the Findings and Recommendations section. Our audit objectives, scope, and methodology appear in Appendix I. 







Return to OIG Home Page